CERTIFICATE OF SERVICE
No. TBD
Wayne A. Powe and Regina Y. Powe
Petitioneds)
v.
Deutsche Bank National Trust Company, as Trustee for Residential Asset Securitization Trust Series
2004-A7 Mortgage Pass-Through Certificates 2004-G
Respondents)
STATE OF MASSACHUSETTS)
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the Wayne
A. Powe and Regina Y. Powe Petition for Writ of Certiorari, by mailing three (3) true and
correct copies of the same by Fedex 2 day prepaid for delivery to the following addresses:
Mark Douglas Cronenwett
Mackie Wolf Zientz & Mann, P.C.
14160 N. Dallas Parkway
Suite 900, Pacific Center 1
Dallas, TX 75254
(214) 635-2650
mcronenwett @ mwzmlaw.com
Counsel for Deutsche Bank National Trust
Company, as Trustee for Residential Asset
Securitization Trust Series 2004-A7 Mortgage
Pass-Through Certificates 2004-G

Lucas “DeDeus

February 12, 2020
SCP Tracking: Powe-291 Oakwood Trail-Cover White

